April 23, 2009

MEGAN J. BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT: Audit Report – Vehicle Maintenance Facilities –
         Scheduled Maintenance Service in the Eastern Area
         (Report Number DR-AR-09-005)

This report presents the results of our self-initiated audit of Vehicle Maintenance Facilities
(VMF) – Scheduled Maintenance Service in the Eastern Area (Project Number
08XG011DR000). The overall objectives were to assess whether the Eastern Area
accomplished all required scheduled maintenance and whether they integrated both VMFs
and local commercial resources for optimum efficiency. See Appendix A for additional
information about this audit.

Conclusion

The Eastern Area completed nearly all the required scheduled preventive maintenance
(SPM)1 during fiscal year (FY) 2007 on their delivery vehicles. However, Eastern Area
management could further optimize VMF efficiency through more effective use of VMF and
local commercial resources, thereby saving an estimated $10.9 million over 10 years.

Scheduled Maintenance Performance

Eastern Area VMF units and local commercial vendors (LCVs) completed an average of
96 percent of all SPMs during FY 2007. Two of the units completed 99 percent of their
SPMs, while the remaining five VMF units completed between 92 and 98 percent of the
required SPMs. Management did not always track and monitor missing or past due SPMs
performed by local vendors. They attributed the differences between SPMs required and
performed to vehicle post office (VPO) officials not providing documentation verifying that
local vendors had performed required SPMs for vehicles.

Without completing all required scheduled maintenance and repairs, some Postal Service
vehicles are vulnerable to breakdowns, which could adversely impact timely mail delivery
and potentially impact the well-being of employees and the public. Since the Postal
Service does not plan to replace its current fleet of long life vehicles (vehicles that are
more than 20 years old) until 2018, we believe it is critical that these vehicles timely
receive SPMs. See Appendix B for additional information about this issue.

1
 A SPM usually includes a preventive maintenance inspection and any repairs needed to maintain the vehicle or meet
safety and reliability standards.
Vehicle Maintenance Facilities – Scheduled                                   DR-AR-09-005
 Maintenance Service in the Eastern Area



We recommend the Vice President, Eastern Area Operations, direct district managers to:

1. Require vehicle maintenance facility officials to immediately conduct all maintenance in
   arrears and properly record vehicle status if maintenance was not conducted.

2. Monitor and track key maintenance activities to ensure timely completion of all required
   scheduled maintenance and repairs.

3. Require vehicle post office officials to timely submit documentation to vehicle
   maintenance facilities to verify completion of scheduled maintenance by local vendors.

Optimum Use of Resources

The Eastern Area did not always optimize its resources to ensure management spent
maintenance and repair funds in the most efficient and cost effective manner. Specifically,
VMF officials often used LCVs for vehicle maintenance and repairs when using VMF
resources would have been more efficient and economical. Likewise, VMF officials often
used VMF resources when it would have been more efficient and economical to use LCVs.
Additionally, VMF officials used maintenance employees to shuttle vehicles between
facilities for maintenance and repairs when more economical means existed. Since we
started this review, Eastern Area officials began corrective action by directing the VMF
manager to review the use the National Shuttling contract. See Appendix C for additional
information on the optimum use of resources.

The following factors contributed to these conditions. Although VMF units had a vehicle
maintenance plan, the plan did not fully consider:

    •   The optimal combination of VMF resources and LCVs for performing scheduled
        maintenance and repairs.

    •   The cost effectiveness of using LCVs instead of VMF resources to shuttle vehicles
        between facilities for maintenance and repairs.

As a result, the Eastern Area expended more resources than necessary to complete
vehicle maintenance and repairs. By optimizing its resources, the Eastern Area could
reduce operating costs by about $305,147 annually, or approximately $10.9 million
projected over 10 years. See Appendix D for our detailed analysis of the monetary impact.




                                             2
Vehicle Maintenance Facilities – Scheduled                                     DR-AR-09-005
 Maintenance Service in the Eastern Area



We recommend the Vice President, Eastern Area Operations, direct district managers to:

4. Work with vehicle maintenance facility officials to:

    •   Maintain the most efficient combination of vehicle maintenance facility and
        commercial resources based on geographical location and costs.

    •   Make optimal use of the Postal Service’s national vehicle shuttle agreement or
        other local commercial shuttle services, when cost-effective, for transporting
        vehicles to and from maintenance facilities.

Management’s Comments

Management agreed with our findings and recommendations. The Eastern Area agreed
that opportunities exist to improve vehicle reliability by completing all scheduled
maintenance and to improve efficiencies in Vehicle Maintenance Service by ensuring
timely submission of data and monitoring performance indicators. Management will
continue to track all SPMs or Preventive Maintenance Inspections (PMIs) in arrears in
Vehicle Management Accounting System (VMAS), verify them monthly, and hold bi-weekly
teleconferences to discuss VMF performance. In addition, management agreed that
monitoring and tracking key vehicle maintenance actives will promote the desired effect of
maintaining vehicles in optimal condition and preserving Postal Service assets.
Management stated they would continue tracking performance indicators and distribute
VMF performance indicator reports to District Managers and Area Executives each month
starting in April 2009.

Further, the response indicated that Eastern Area officials understand the importance of
accurate and complete records of activities and costs associated with vehicle maintenance
to development of processes to improve efficiencies. Eastern Area officials stated they
would send out a directive to review accounting practices guidelines for use of the
Voyager Fleet Management credit card. In addition, the Eastern Area agreed the VMFs
need to determine the best use of postal vehicle maintenance technicians and quality
contractor services to maintain the vehicle fleet in optimal conditions. Management
advised the Eastern Area VMF managers to contact the shuttle contract vendor to
determine the most cost-effective means of shuttling vehicles into the VMF for service.
District and VMF Mangers will review maintenance technicians and quality contractor
services to maintain the vehicle fleet in optimal condition.

Finally, Eastern Area management did not agree with the projected savings over 10 years
because they asserted that the Postal Service business model does not remain constant
for 10 years. In addition, Eastern Area officials indicated that since the U.S. Postal
Service Office of Inspector General (OIG) used 2 years prior, the same 2-year principle
should apply in projecting forward. Additionally, without having the full details on the data
from which the projections were derived, they said they cannot adequately present a




                                              3
Vehicle Maintenance Facilities – Scheduled                                    DR-AR-09-005
 Maintenance Service in the Eastern Area


specific monetary amount that is amenable to the Eastern Area. The Eastern Area stated
that, instead, they would like the OIG to consider a straight-line of 20 percent of the 10-
year projected savings. We have included management’s comments, in their entirety, in
Appendix G.

Evaluation of Management’s Comments

We consider management’s comments responsive to the findings and recommendations
and management’s corrective actions should resolve the issues identified in the report. In
regards to management’s disagreement with our estimated monetary impact of $11.4
million over the next 10 years, in subsequent discussions, management stated they were
concerned with a 10-year projection because of the economic conditions and instability of
the Postal Service. Additionally, management stated that, due to the many potential
changes that could affect vehicle usage over the next 10 years, they disagreed with the
monetary impact for the Eastern Area, but would agree to a 2-year impact of $2,179,620.

We used 10 years to project savings per OIG policy, which states “generally, any
recommendation which will result in a perpetual cost avoidance or perpetual revenue
increase justifies a discounted cash flow calculation. Generally, a 10-year cash flow
analysis is reasonable. However, depending on the lifecycle for specific programs, a cash
flow analysis for a longer or shorter period may apply.” Therefore, we determined it
appropriate to use 10 years due to the Postal Service’s decision to maintain delivery
vehicles beyond the 24-year useful life, until 2018 – approximately 10 years from now.
The OIG’s Optimization Model provides a plan to improve the use of internal and external
resources to reduce costs and optimize efficiencies during this period of extended
maintenance and repair. The OIG believes the model used to calculate savings provided
a reasonable estimate of costs the Eastern Area could save by optimizing VMFs and
LCVs.

We held a detailed discussion on April 2, 2009, to further explain to Eastern Area
management how we used the model to calculate the estimated savings. During this
meeting, the Eastern Area requested the opportunity to provide additional information for
the Washington VMF because the maintenance and overtime hours used in the cost
savings calculations did not reflect their actual performance. The additional information
reduced the potential cost savings from $11,465,254 to $10,898,100. We provided
Eastern Area management with revised detailed hard copy model data for examination on
April 8, 2009. Since Eastern Area management agreed that opportunity exists to improve
efficiency and plans are underway to better use VMF and LCV resources, we believe the
estimated savings are applicable and properly classified as monetary impact.

We will report $10,898,100 of funds put to better use in our Semiannual Report to
Congress. The OIG considers recommendation 4 significant and, therefore, it requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when management completes corrective actions. This recommendation should not be




                                             4
Vehicle Maintenance Facilities – Scheduled                                     DR-AR-09-005
 Maintenance Service in the Eastern Area


closed in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery, or
me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: William P. Galligan
    Anthony M. Pajunas
    Jordan M. Small
    Thomas D. Duchesne
    Frank J. Fantigrassi
    Katherine S. Banks




                                              5
Vehicle Maintenance Facilities – Scheduled                                                        DR-AR-09-005
 Maintenance Service in the Eastern Area


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service invested more than $3 billion in vehicle assets to transport and deliver
the mail. The vehicle inventory in FY 2007 consisted of 219,522 delivery, transport, and
administrative vehicles. Delivery and collection vehicles account for 195,211 (or about 89
percent) of the total fleet.2 (See Figure 1.) The Postal Service acquired the majority of
these vehicles between 1987 and 1994 and planned to maintain them for 24 years. About
7,700 of these vehicles purchased in 1987 are approaching the end of their useful life.
However, the Postal Service recently stated that capital constraints now dictate that many
of these vehicles must stay in service until 2018 – 7 years more than the planned lifespan.

                                              Figure 1
                        Delivery and Collection Vehicles in VMFs for SPM




                                            Source: Postal Service

Management established 190 main and 131 auxiliary VMFs to maintain these assets in a
technically reliable, safe, clean, and neat condition for efficient mail transportation. Vehicle
maintenance includes selecting and training maintenance technicians; providing garages,
tools, and equipment; performing repairs; and monitoring and maintaining preventive
maintenance standards. The geographic location of VMFs and auxiliary VMFs varies in
each area as needed to support vehicle maintenance and reduce transportation costs.
Management established auxiliary VMFs for situations where vehicle maintenance
requirements exceed VMF resources or where shuttle time or geographical distances
warrant use of an auxiliary VMF.

Area officials are responsible for validating staffing requirements for vehicle related
positions and ensuring an adequate scheduled maintenance program. Vehicle
maintenance managers have an overall responsibility for oversight of all maintenance and
repair services performed at VMF units, as well as any work contracted to commercial
vendors. Although the VMF manager has overall responsibility for vehicle maintenance,
vehicles are usually assigned to VPOs. VPOs can be post offices, branches, stations,

2
  The scope of our audit was FY 2007. In FY 2008 the vehicle inventory increased to 221,047 and 197,898
(approximately 90 percent) are delivery vehicles.




                                                         6
Vehicle Maintenance Facilities – Scheduled                                           DR-AR-09-005
 Maintenance Service in the Eastern Area


associated offices, or other delivery and support facilities. Officials at VPOs can also
contract with LCVs for maintenance and repair services, but they are required to document
the repairs and obtain the VMF manager’s approval for repairs and services costing more
than $250.

The Postal Service developed Handbook PO-701, Fleet Management, to assist operating
personnel in maintaining the vehicle fleet in the most economical manner possible. The
handbook requires a maintenance plan that provides for regular examination and service
of Postal Service-owned vehicles. VMF managers must prepare a vehicle maintenance
plan designating where and when each vehicle will receive scheduled maintenance. The
handbook also emphasizes that preventive or scheduled maintenance is preferable to
reactive or unscheduled maintenance. See Appendix F, "Scheduled Maintenance
Process,” for a flowchart.

The Postal Service also established a Model VMF Performance Review program. The
review program is an integral part of VMF operations and a key tool for determining the
efficiency of a unit at a given time and identifying areas that need corrective action.
Districts must ensure VMFs perform self-reviews quarterly. A VMF must achieve a score
of 85 or more to be certified. The area must certify or recertify each unit at least every
3 years.

The Postal Service uses the VMAS to code and track costs. VMAS is a computer-based
support system designed to collect, process, store, present, and communicate vehicle
maintenance data. The table below shows VMF expenses, including commercial vendors’
expenses, for FY 2007.


                    Table 1. Maintenance Expenditures for FY 2007 by Area
                                            VMF and Commercial Expenditures
                                      Commercial             VMF
                 Postal Service    Vendor Expenses Expenses in Total Expenses
               Area of Operation       in FY 2007          FY 2007      in FY 2007
               Southeast                  $13,867,484     $52,648,111     $66,515,595
               Great Lakes                 15,152,866      46,536,525       61,689,391
               Eastern                     12,213,149      45,085,152       57,298,301
               Western                     10,382,055      45,808,493       56,190,548
               Pacific                       9,105,547     42,819,217       51,924,764
               Northeast                   10,821,346      37,860,317       48,681,663
               New York Metro              12,433,942      36,814,803       49,248,745
               Southwest                     7,194,386     36,503,347       43,697,733
               Capital Metro                 7,643,667     32,808,458       40,452,125
               Total                      $98,814,442 $376,884,423       $475,698,865
                          Source: Postal Service Category Management Center




                                                 7
Vehicle Maintenance Facilities – Scheduled                                                           DR-AR-09-005
 Maintenance Service in the Eastern Area



OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to assess whether the Eastern Area accomplished all
required scheduled maintenance and whether they integrated both VMFs and local
commercial resources for optimum efficiency.

To accomplish the objectives, we randomly selected and reviewed vehicle service files
from seven3 of the 25 VMFs in the Eastern Area. We documented the scheduled
maintenance, the amount of SPM required, and whether they were conducted in a timely
manner, and reviewed work order files to document whether the SPM performed were
considered actual SPM, based on the time required for maintenance. We reviewed the
Web-Enabled Enterprise Information System (WebEIS) to analyze vehicles in
“maintenance in arrears” status and compared the number of SPMs completed to actual
maintenance records. We also obtained data from Web Complement Information System
on the number of vehicle maintenance technicians and other data from the Enterprise
Data Warehouse (EDW) System.

We obtained a random sample of seven of the Eastern Area’s VMFs from all districts and
reviewed FY 2007 VMAS data for scheduled maintenance services for the selected VMFs.
See Appendix E for more information. We identified the number of PMI4 to be performed
at each auxiliary VMF, the VPOs where the vehicles were located, and the VPOs’ distance
from the VMFs, and documented the number of vehicle maintenance technicians assigned
to each VMF.

We identified expenditures for each VMF and LCV scheduled maintenance. In
discussions with VMF managers and reviews of maintenance records, we documented the
amount of SPM and number of SPM inspections required for each location on a yearly
basis. Using the VMAS vehicle work order history, we analyzed the average time to
perform a SPM for the seven VMF units reviewed in our sample.

We developed an optimization model that used the above operational data to establish
baseline standards, key characteristics, shuttle usage, and cost. Using this data, we
established an optimum operating efficiency for each VMF. Based on the above analyses,
assumptions, and constraints, we estimated the Eastern Area could increase overall VMF
efficiency and we projected the cost savings for the Eastern Area’s universe of 25 VMFs.
See Appendix D, “Calculation of Cost Savings,” for the model and assumptions we used to
compute monetary benefits.

We conducted this performance audit from November 2007 through April 2009 in
accordance with generally accepted government auditing standards and included such

3
  The random sample was reduced from 10 to seven by excluding the Bellmawr, Pittsburgh and Toledo VMFs. We did
this because it was difficult to verify their SPMs due to discrepancies in vehicle inventory.
4
  A PMI is that portion of required scheduled maintenance a vehicle must receive to determine if mechanical and safety
systems are functioning properly.




                                                           8
 Vehicle Maintenance Facilities – Scheduled                                       DR-AR-09-005
  Maintenance Service in the Eastern Area


 tests of internal controls as we considered necessary under the circumstances. Those
 standards require that we plan and perform the audit to obtain sufficient, appropriate
 evidence to provide a reasonable basis for our findings and conclusions based on our
 audit objectives. We believe that the evidence obtained provides a reasonable basis for
 our findings and conclusions based on our audit objectives. We relied on data from VMAS
 and WebEIS. We did not audit these systems, but performed a limited review of data
 integrity to support our reliance on the data. We discussed our observations and
 conclusions with management officials on February 25, 2009, and included their
 comments where appropriate.

 PRIOR AUDIT COVERAGE

 The OIG has issued 10 reports related to our objectives in the last several years.

                                                 Report                               Report
            Report Title                         Number       Final Report Date      Results
Vehicle Maintenance Facilities –              DR-AR-09-003   January 27, 2009      $17,951,396
Scheduled Maintenance Service in
the Capital Metro Area

Vehicle Maintenance Facilities –              DR-AR-09-001    December 9, 2008      $14,817,650
Scheduled Maintenance Service in
the Northeast Area

Vehicle Maintenance Facilities –              DR-AR-08-011   September 30, 2008     $25,287,093
Scheduled Maintenance Service in
the New York Metro Area

Vehicle Maintenance Facilities –              DR-AR-08-010   September 30, 2008     $21,580,236
Scheduled Maintenance Service in
the Pacific Area

Vehicle Maintenance Facilities –              DR-AR-08-009   September 29, 2008     $28,224,843
Scheduled Maintenance Service in
the Great Lakes Area

Vehicle Maintenance Facilities –              DR-AR-08-008   September 29, 2008     $14,251,384
Scheduled Maintenance Service in
the Western Area

Vehicle Maintenance Facilities –              DR-AR-08-007   September 16, 2008     $27,620,773
Scheduled Maintenance Service in
the Southeast Area




                                                     9
 Vehicle Maintenance Facilities – Scheduled                                       DR-AR-09-005
  Maintenance Service in the Eastern Area



                                                 Report                               Report
          Report Title                          Number       Final Report Date        Results
Vehicle Maintenance Facilities –              DR-AR-08-006    August 14, 2008       $34,522,159
Scheduled Maintenance Service in
the Southwest Area

Maintenance and Repair                        DR-MA-07-005   September 21, 2007     $ 1,571,517
Payments to Commercial Vendors
Using Postal Service Form 8230,
Authorization for Payment

Management of Delivery Vehicle                DR-AR-06-005     June 14, 2006        $22,796,487
Utilization



 The results of the audits finalized in FYs 2008 and 2009 were similar to those for the
 Eastern Area. VMF managers did not complete SPM on all vehicles and did not always
 integrate both VMF and LCV resources for optimum efficiency. Management agreed with
 our findings and recommendations and generally agreed with the monetary impact on our
 prior reports.

 The FY 2007 audit concluded that using Postal Service (PS) Form 8230, Authorization for
 Payment, to pay commercial vendors for maintenance and repair services was not cost
 effective and did not include controls to reconcile payments and ensure repair costs were
 reasonable. Management agreed with our findings, recommendations, and monetary
 impact.

 The FY 2006 audit concluded that Postal Service officials made significant strides in
 reducing costs associated with delivery vehicle expenditures over the previous 3 years.
 However, delivery management officials could further improve the use of vehicles that
 support delivery operations. Management agreed with our findings, recommendations,
 and monetary impact.




                                                    10
Vehicle Maintenance Facilities – Scheduled                                                           DR-AR-09-005
 Maintenance Service in the Eastern Area


                APPENDIX B: SCHEDULED MAINTENANCE PERFORMANCE

The Eastern Area completed an average of 96 percent of all SPMs during FY 2007. Two
of the units completed 99 percent of their SPMs, while the remaining five VMF units
completed between 92 and 98 percent of the required SPMs. See Table 2.

               Table 2. Scheduled Preventive Maintenance Performed in FY 2007
                                 Required in                Percentage
                  VMF Location     FY 2007     Performed    Performed
                  Charleston             987           950        96%
                  Clarksburg             340           334        98%
                  Evansville           1,004           924        92%
                  Harrisburg           3,045         2,855        94%
                  Roanoke              1,124         1,116        99%
                  Southeastern         2,204         2,077        94%
                  Washington             653           645        99%
                  Total/Average        9,357         8,901        96%
                                    Source: VMAS and OIG optimization model


Reporting and Tracking Maintenance Activities. Management did not always track and
monitor missing or past due SPMs performed by local vendors. They attributed the
differences between SPMs required and performed to VPO officials not providing
documentation to verify that the local vendors had performed required SPMs for vehicles.
While Postal Service policy does not consider SPMs performed within 2 weeks of the due
date late, these SPMs were not recorded in VMAS as vehicles in arrears. Further, even
though we determined our sample VMFs performed the majority of their SPMs, the
process of verifying scheduled maintenance performed proved difficult.5 This was in part
because of multiple vehicle transfers, and the way SPMs are tracked for VMFs nationwide.
Specifically, the maintenance process tracks the status of vehicles in arrears6 rather than
number of SPMs performed.

Without completing all required scheduled maintenance and repairs, some of the Postal
Service vehicles are vulnerable to breakdowns, which may create mail delays and service
problems. Further, by performing the required SPMs, the number of vehicle accidents
could decrease, thereby lowering costs and increasing the well-being of employees and
the public. Since the Postal Service does not plan to begin replacing its current fleet of
long life vehicles (vehicles that are more than 20 years old) until 2018, we believe it is
critical that these vehicles receive the required maintenance.



5
  The issue of more easily reporting and tracking SPM requires action by Postal Service Headquarters and will be
addressed in a national capping report.
6
  The “vehicles in arrears” status is a VMF performance measure.




                                                          11
Vehicle Maintenance Facilities – Scheduled                                                        DR-AR-09-005
 Maintenance Service in the Eastern Area


                         APPENDIX C: OPTIMUM USE OF RESOURCES

The Eastern Area did not always optimize its resources to ensure that maintenance and
repair funds were expended in the most efficient and cost effective manner. Specifically,
maintenance officials sometimes used LCVs for vehicle maintenance and repairs when
using VMF resources would have been more efficient and economical. Likewise,
management sometimes used VMF resources when it would have been more efficient and
economical to use LCVs. Additionally, VMF officials used maintenance employees to
shuttle vehicles from the VPO to the VMF when more economical means existed.

Several factors contributed to these conditions.

       o Optimum Use of VMF and Local Commercial Resources. The vehicle maintenance
         plan did not consider an optimum combination of both VMF and commercial
         resources.7 Generally, it is more cost effective8 for the VMF to perform SPMs on
         vehicles stationed within 50 miles of the VPO. However, we concluded a local
         commercial vendor should perform SPMs on vehicles when the VPO is more than
         50 miles from the nearest VMF. We determined that 1,227 SPMs should have
         been performed at the other site – either the VMF or the commercial facility. . See
         Table 3.

                     Table 3. VMF and Local Commercial Vendor Resources
                           FY 2007 SPMs                            Sites SPMs Were        Total SPMs That Could Have
                           Performed by                                Performed             Been More Optimally
                                    Local         Total SPMs                  Local       Performed by Either VMF or
      VMF Location       VMF      Vendors         Performed       VMF        Vendors             Local Vendors
    Charleston             944            6               950          0             0                              0
    Clarksburg             151            183              334        46             36                                 82
    Evansville             832             92              924       104             13                                117
    Harrisburg           2,355            500            2,855       159             63                                222
    Roanoke                664            452            1,116       153             66                                219
    Southeastern         1,506            571            2,077       520             40                                560
    Washington             559             86              645        10             17                                 27

    Total                7,011          1,890            8,901       992           235                                1,227
                                 Source: VMAS data and OIG optimization model

       o Vehicle Shuttling. In most cases, we found the Postal Service’s national vehicle
         shuttle agreement or local commercial shuttling services were more cost effective
         than using VMF maintenance technicians. The Eastern Area used about 7,2609
         workhours for vehicle maintenance technicians to shuttle vehicles rather than

7
  VMAS does not track the number of SPMs accomplished. The OIG’s efficiency and optimization model estimated the
number completed by analyzing all work orders assigned to code 22 (scheduled maintenance) and, with some
adjustment, considered all work of at least 2 hours as a SPM.
8
  We base cost effectiveness on the overhead costs to transport vehicles between the VMF and the VPO using vehicle
maintenance technicians or other VMF personnel.
9
  This number increased from 6,943 to 7,260 because the addition of 317 shuttling hours used by the Washington VMF.




                                                         12
 Vehicle Maintenance Facilities – Scheduled                                                                DR-AR-09-005
  Maintenance Service in the Eastern Area


             perform maintenance. The shuttle workhours related to SPMs were equivalent to
             approximately four vehicle maintenance technician positions at a cost of
             $312,462.10 During our review, Eastern Area officials began corrective action by
             directing VMF managers to review the use the National Shuttling contract. See
             Table 4.

                 Table 4. Vehicle Maintenance Technician Hours Used for Shuttling11
                                                     Total                                                          Cost of
                   Number of        Estimated       Shuttle     Percentage        Shuttle                           Shuttle
                    Vehicle         Scheduled       Hours        of Direct      Hours Used        Equivalent      Hours Used
                  Maintenance      Maintenance       Used      Maintenance          for          Maintenance           by
                  Technicians         Hours          in FY     Hours Used        Scheduled       Technician       Maintenance
VMF Location       Assigned         Available        2007      for Shuttling    Maintenance       Positions       Technicians
Charleston                  11           15,435       1,373               8.9           587              0.33          $25,264
Clarksburg                     5           7,016      1,128             16.1              873              0.50          37,574
Evansville                     8          11,226      1,866             16.6                 5             0.00                215
Harrisburg                   23           32,274      3,018               9.4           2,637              1.50         113,496
Roanoke                      10           14,032      3,761             26.8            1,144              0.65          49,238
Southeastern                 16           22,451      2,084               9.3           1,695              0.97          72,944
Washington                     4           5,613        371               6.6             319              0.18          13,730
Totals/Percent               77          108,046     13,602             13.0            7,260              4.14       $312,462
                                       Source: VMAS and OIG optimization model

 We found the Eastern Area VMF Managers and the Vehicle Management Program
 Analyst to be proactive in managing vehicle maintenance and receptive to the intent of our
 audit and recommendations. Management officials did express concern that:

      o VMFs may not always find cost effective shuttle alternatives.

      o The quality of maintenance LCVs perform is often not at the same level as the
        VMFs.

      o There were insufficient resources, staff, and time to monitor LCVs’ work.

      o Additional maintenance workhours were used to repair extensive rust and corrosion
        damage to an aging fleet due to the winter weather conditions in the Eastern Area.

 The OIG acknowledges these issues and concerns and the challenges the Postal Service
 faces regarding VMF operations. Notwithstanding these concerns and challenges, in our
 opinion, opportunities exist to become more efficient and save money. Specifically, the
 Eastern Area could lower overall VMF operating costs by an average of $305,147
 annually. These efficiencies, when projected for the 25 VMFs in the Eastern Area, could

 10
    This estimate of equivalent technician positions applies only to the hours used for shuttling. It does not relate to any
 actual reductions in this report.
 11
    Differences in totals are due to rounding of numbers calculated by the OIG’s optimization model.




                                                              13
Vehicle Maintenance Facilities – Scheduled                               DR-AR-09-005
 Maintenance Service in the Eastern Area


save an estimated $10.9 million over a 10-year period. See Appendix D for more
information.




                                             14
Vehicle Maintenance Facilities – Scheduled                                                        DR-AR-09-005
 Maintenance Service in the Eastern Area



                    APPENDIX D: OIG CALCULATION OF COST SAVINGS

The OIG identified $10,898,100 in funds put to better use over the next 10 years for the
Eastern Area’s 25 VMFs.12

                                       Table 5. Savings in Dollars
                                              Average
                            VMF               Annual             Estimated Savings
                          Location            Savings              Over 10 Years
                        Charleston              $12,598                     $125,980
                        Clarksburg                34,822                     348,220
                        Evansville                48,665                     486,650
                        Harrisburg                 6,584                      65,840
                        Roanoke                   72,789                     727,890
                        Southeastern              42,786                     427,860
                        Washington                  86,903                       869,030

                        Totals             $305,147                           $3,051,470
                        Projected Potential Savings
                        Over 25 VMFs in the
                        Eastern Area                                        $10,898,100
                                         Source: OIG optimization model

We calculated the savings based on the following methodology and assumptions.

     •   Each VMF has a list of VPOs for which it is responsible for vehicle maintenance.
         Each VPO has a number of Postal Service vehicles that require regular SPM.
         Management determines the amount of SPM a vehicle requires at the beginning of
         the year based on the demands the assigned route places on the vehicle. All SPM
         for a given year must be performed on each vehicle; however, the VMF may
         delegate some of this workload to commercial vendors that are near the VPOs. We
         refer to this contract labor as LCVs.

     •   The purpose of this audit was to determine the optimal use of the SPMs to be
         performed by the VMFs and LCVs. We took into consideration the mechanics’
         labor costs and all relevant shuttling costs. As with the SPMs, VMFs may contract
         out shuttling. The Postal Service has a national vehicle shuttle agreement and the
         OIG used that rate in the analysis. However, VMFs can use a less expensive local
         shuttle contractor if one can be identified.




12
  At a 95 percent confidence level, the OIG estimates the 10-year savings amount to range between $5.1 and
$16.7 million. We used the midpoint estimate of $10.9 million in our statistical projection.




                                                         15
Vehicle Maintenance Facilities – Scheduled                                                           DR-AR-09-005
 Maintenance Service in the Eastern Area


     •   We developed the optimization model to find a least-cost solution based on
         performing all required SPMs. We used the VMFs’ FY 2007 operational data. Any
         SPMs not performed by VMFs were considered completed by LCVs.13 We
         restricted the scope of this audit to maintenance technicians’ time spent performing
         scheduled maintenance and shuttling activities. This analysis draws no conclusions
         regarding the time dedicated to other activities or how maintenance technicians
         used the remainder of their time.

     •   We optimized the VMFs’ scheduled maintenance and shuttling time for the next 10
         years, assuming the Postal Service would reduce the labor contingent by
         4.5 percent per year, the historical Eastern Area attrition rate.14 This optimization
         gives the least-cost solution and specifies how the SPMs at each VPO should be
         distributed between the VMFs and the LCVs. The model shows which shuttling
         jobs should be performed by both the VMFs and the contractors. The model
         analyzes all costs and hours (for SPMs at VMFs, SPMs at LCVs, VMF shuttling,
         and contract shuttling). The model also compares total SPMs currently performed
         by the VMFs and local vendors to the total amount that VMFs or LCVs could more
         optimally perform.

     •   In these optimizations, we assumed that each VMF would operate at a standard
         efficiency. We used the sampled seven VMFs’ average time per SPM as a
         standard for the time it takes to complete a SPM in that area. If a particular VMF
         performed better than this standard, we assumed the VMF maintained its current
         efficiency.

     •   VMAS does not track the number of SPMs accomplished for each vehicle. The
         OIG’s efficiency and optimization model estimated the number of SPMs completed
         by analyzing all work orders assigned to code 22 (scheduled maintenance) and with
         adjustments (i.e., new vehicles and commercial repairs) considered all work lasting
         at least 2 hours15 as a SPM. We explained the process to the VMF manager and
         then confirmed/adjusted the number of SPMs required and completed.

     •   We identified cost savings if the VMF was not efficiently using its shuttling time. We
         compared the VMFs’ total shuttling time to the aggregate time that should be
         needed to perform all of the VMFs’ shuttling, assuming that two vehicles were
         transported on each trip. The cost of any excess time was time that could have
13
   We obtained the current number of SPMs performed by VMFs and LCVs from VMAS databases located at the VMFs
and transmitted to the xxxxxxxxx xxxxxxxx xx xxx xxxxx Information Technology and Accounting Service Center.
Because a VMF may not perform all its required SPMs, we assumed LCVs would perform the remaining SPMs. In
addition, in some cases, a VMF performed more SPMs than required at a VPO. We credited the VMFs with these
additional SPMs and determined a comparable solution by reassigning these SPMs to the closest location with a
shortfall. We accomplished this, in part, by assuming that the baseline case kept the scheduled maintenance hours and
shuttling hours constant at current levels.
14
   The historical attrition rate for Eastern Area maintenance technicians was determined by averaging the past 7 years’
(2001-2007) worth of data obtained from the WebEIS.
15
   We used 2 hours because of the Postal Service’s requirement for a “Type A” and “Type B” maintenance inspection
prior to any repair work. These inspections require between 1.5 and 2.5 hours.




                                                          16
Vehicle Maintenance Facilities – Scheduled                                                       DR-AR-09-005
 Maintenance Service in the Eastern Area


           been saved, although the actual amount of time that could be saved was likely to be
           higher because the VMFs probably did not perform all of their own shuttling.

       •   For our model, we reviewed the minimum and maximum overtime hours per week
           from what the VMFs used during the first 6 months of FY 2008 determined from the
           EDW system. The number of hours of straight time each mechanic worked per
           year is 1,754.16

       •   Based on the above analyses and projections, we estimated the Eastern Area could
           reduce costs by using local commercial resources for shuttling and SPM when
           appropriate. We projected over the Eastern Area’s universe of 25 VMFs, a
           reduction of costs by approximately $305,147 annually, or about $10.9 million over
           a 10-year period.




16
     Source: Finance Memorandum dated March 6, 2006, “Workhour Rates” for Fiscal Years 2005-2007.”




                                                         17
Vehicle Maintenance Facilities – Scheduled                              DR-AR-09-005
 Maintenance Service in the Eastern Area


                           APPENDIX E: SELECTED DISTRICTS AND
                             VEHICLE MAINTENANCE FACILITIES

                                District                       VMF
                          Appalachian                    Charleston
                                                         Clarksburg
                                                         Roanoke

                          Central Pennsylvania           Harrisburg

                          Cincinnati                     Toledo

                          Kentuckiana                    Evansville

                          Philadelphia Metro             Southeastern

                          Pittsburgh                     Pittsburgh
                                                         Washington

                          South Jersey                   Bellmawr
                                        Source: OIG Experts Sample




                                                   18
Vehicle Maintenance Facilities – Scheduled                                        DR-AR-09-005
 Maintenance Service in the Eastern Area

                                                                             17
                     APPENDIX F: SCHEDULED MAINTENANCE PROCESS




17
     Source: Postal Service Handbook PO-701, Fleet Management, March 1991.




                                                        19
Vehicle Maintenance Facilities – Scheduled                   DR-AR-09-005
 Maintenance Service in the Eastern Area


                         APPENDIX G: MANAGEMENT’S COMMENTS




                                             20
Vehicle Maintenance Facilities – Scheduled        DR-AR-09-005
 Maintenance Service in the Eastern Area




                                             21
Vehicle Maintenance Facilities – Scheduled        DR-AR-09-005
 Maintenance Service in the Eastern Area




                                             22
